Report No. D-2011-088                           August 1, 2011





     Ballistic Testing for Interceptor Body Armor Inserts 

                      Needs Improvement

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANSI	                         American National Standards Institute
ASQ          	                American Society for Quality
BFD         	                 Back Face Deformation
COPD            	             Contract Purchase Description
COR          	                Contracting Officer’s Representative
COTR            	             Contracting Officer’s Technical Representative
DCMA 	                        Defense Contract Management Agency
DOT&E 	                       Director, Operational Test and Evaluation
ESBI          	               Enhanced Side Ballistic Inserts
ESAPI 	                       Enhanced Small Arms Protective Insert
FAR         	                 Federal Acquisition Regulation
FAT         	                 First Article Test
FPS       	                   Feet per Second
GAO           	               Government Accountability Office
IBA        	                  Interceptor Body Armor
IG      	                     Inspector General
LAT         	                 Lot Acceptance Test
mm        	                   millimeters
PEO         	                 Program Executive Office
PM SEQ 	                      Program Manager Soldier Equipment
QAR          	                Quality Assurance Representative
RDECOMAC 	                    Research, Development and Engineering Command
                              Acquisition Center
SAPI                          S
                              	 mall Arms Protective Insert
XSAPI	                        Next Generation Small Arms Protective Insert
                                     INSPECTOR GENERAL
                                      DEPARTM ENT OF DEFENSE 

                                         400 ARMY NAVY DRIVE 

                                   AR LIN GTON, VIRG INIA 22202-4704 





                                                                                    August 1, 2011

MEMORANDUM FOR COMMANDING GENERAL, PROGRAM EXECUTIVE OFFICE
                   SOLDIER
                DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                   AGENCY
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Ballistic Testing for Interceptor Body Armor Inserts Needs Improvement
         (Report No. D-2011-088)

We are providing this report for your information and use. We determined that ballistic testing
and quality assurance for Interceptor Body Armor inserts did not have proper controls to ensure
that the ballistic inserts met contract requirements. Consequently, the Army cannot be sure that
the appropriate level of protection has been achieved. This is the fourth in a series ofInterceptor
Body Armor reports in response to a congressional request. We considered management
comments on a draft of this report when preparing the final report.

The Army comments conformed to the requirements of DoD Directive 7650.3. As a result of
discussions with Program Manager Soldier Equipment officials and the subsequent management
comments, we revised draft Recommendation B. The Army comments were responsive to all
recommendations, and no further comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071).


                                             ~~Ul?kJy-
                                               Deputy Assistant Inspector General
                                               Acquisition and Contract Management
Report No. D-2011-088 (Project No. D2008-D000CD-0256.003)                         August 1, 2011

               Results in Brief: Ballistic Testing
               for Interceptor Body Armor Inserts
               Needs Improvement
                                                       for determining the velocity, and the weathered
What We Did                                            and altitude tests were eliminated to expedite
We are performing a series of Interceptor Body         FAT in support of the urgent wartime
Armor audits in response to a congressional            requirement for the ballistic inserts.
request. This audit evaluated product quality
assurance for seven Army contracts, valued at          Defense Contract Management Agency
$2.5 billion, for ballistic inserts awarded            (DCMA) Phoenix personnel did not use an
between 2004 and 2006. Specifically, we                appropriate random sampling methodology to
determined whether the results for First Article       select a statistically representative sample for
Tests (FATs) and Lot Acceptance Tests (LATs)           the LATs. This occurred because DCMA
met contract requirements and whether quality          personnel believed that their sampling process
assurance personnel performed the product              provided a representative sample. As a result,
quality surveillance in accordance with contract       the LAT results cannot be relied on to project
requirements.                                          identified deficiencies to the entire lot.

                                                       Because we did not conduct any additional
What We Found                                          testing, we could not conclude that ballistic
The Army Program Manager Soldier Equipment             performance was adversely affected by
(PM SEQ) could provide only limited assurance          inadequate testing and quality assurance.
that approved ballistic materials for
approximately 5 million inserts on seven               What We Recommend
contracts met the contract requirements. This
occurred because PM SEQ did not consistently           Program Executive Officer Soldier should
enforce the requirements for testing the body           revise the COPD to clearly define the point
armor ballistic inserts. Specifically on two              at which velocity is to be measured;
contracts, PM SEQ did not conduct all the               perform the weathered and altitude tests as
required tests because they had no protection             required by the COPD; and
performance concerns on these inserts. On all           perform a risk assessment on two lots, to
seven contracts, PM SEQ did not always use the            determine whether the ballistic inserts will
correct size ballistic insert for FATs, use a             perform as intended.
consistent methodology for measuring the
proper velocity, or enforce the humidity and           Management Comments and
temperature requirements. In addition, PM SEQ          Our Response
did not require weathered and altitude tests on
six of the seven contracts.                            The Deputy for Acquisition and Systems
                                                       Management responded for the Assistant
PM SEQ officials indicated that neither the size       Secretary of the Army for Acquisition, Logistics
of the ballistic insert nor the humidity and           and Technology and agreed with the
temperature would affect the test results. The         recommendations. As a result of his comments
proper velocity was not always calculated              we revised Recommendation B. The planned
because the contracts did not define the process       actions meet the intent of the recommendations.


                                                   i
Report No. D-2011-088 (Project No. D2008-D000CD-0256.003)      August 1, 2011


Recommendations Table
        Management               Recommendations        No Additional Comments
                                Requiring Comment                Required
Commanding General,                                     A.1, A.2, A.3, B
Program Executive Office
Soldier




                                        ii
Table of Contents
Introduction	                                                             1


      Objectives                                                          1

      Background                                                          1

      Quality Assurance                                                   3

      Internal Control Weaknesses Were Identified                         4


Finding A. 	Limited Assurance Obtained From Ballistic Insert Testing      5


      Testing Process for IBA Ballistic Inserts                           6

      Ballistic Inserts Were Not Tested Consistently                      7

      Critical Decisions Were Not Documented                             12 

      Contractor Employees Performed Inherently Governmental Functions   14 

      The Chief Scientist Had Too Much Oversight Responsibility          15 

      Management Actions                                                 16 

      Conclusion                                                         18     

      Management Comments on the Finding and Our Response                18 

      Recommendations, Management Comments, and Our Response             19 


Finding B. 	Improvements Needed for IBA Insert Test Sample Selection 

            Process                                                      21


      DCMA Quality Assurance Process                                     21 

      LAT Sample Selection                                               21 

      DCMA Sampling Methodology May Not Identify Defects                 22 

      Damaged Sample Items Were Replaced With Nondefective Items         23 

      Management Actions                                                 23 

      Recommendation, Management Comments, and Our Response              24 


Appendices

      A. 	Scope and Methodology                                          26 

             Observation of DCMA Sample Ballistic Insert Selection       26 

             Use of Computer-Processed Data                              27 

             Use of Technical Assistance                                 27 

      B. Prior Coverage 	                                                28 

      C. Request From Congresswoman Slaughter 	                          30 

      D. Memorandum to DCMA Regarding Body Armor Sampling 	              32 

      E. DCMA Response 	                                                 34

Table of Contents (cont’d)
Management Comments

     Department of the Army Comments   39
Introduction
Objectives
The overall objective of our audit was to evaluate the product quality assurance for seven
Army ballistic insert contracts. Specifically, we determined whether the ballistic test
results for First Article Tests (FATs) and Lot Acceptance Tests (LATs) met contract
requirements. Further, we determined whether quality assurance personnel performed
product quality surveillance in accordance with contract requirements. See Appendix A
for a discussion of scope and methodology and prior coverage.

Background
This is the fourth in a series of reports issued in relation to a request from
Congresswoman Slaughter (see Appendix B). DoD Inspector General (IG) Report No.
D-2008-067, “DoD Procurement Policy for Body Armor,” March 31, 2008, identified 13
contracts that did not have documentation on first article testing. In a June 23, 2008,
letter, Congresswoman Slaughter requested that the DoD IG conduct a further review of
the 13 contracts. DoD IG Report No. D-2009-047, “DoD Testing Requirements for Body
Armor,” January 29, 2009, addressed FATs for 1 of the 13 contracts. DoD IG Report No.
D-2010-029, "DoD Contractor Qualifications and Selection Criteria for Body Armor
Contracts," December 21, 2009, addressed the contractor qualifications and selection
criteria of those 13 contracts. Six of the 13 contracts were addressed in DoD IG Report
No. D-2011-030, “Ballistic Testing and Product Quality Surveillance for the Interceptor
Body Armor - Vest Components Need Improvement,” January 3, 2011. This report
addresses the remaining 7 of the 13 Army contracts valued at $2.5 billion, awarded to six
contractors for ballistic inserts.1

Interceptor Body Armor Ballistic Inserts
Interceptor Body Armor (IBA) is a modular body armor system that consists of an outer
tactical vest, ballistic inserts, and components that increase the area of coverage. Ballistic
inserts include front and back Small Arms Protective Inserts (SAPIs) or Enhanced Small
Arms Protective Inserts (ESAPIs) and Enhanced Side Ballistic Inserts (ESBIs). IBA
increases survivability by stopping or slowing bullets and fragments and reducing the
number and severity of wounds. Figure 1 shows the IBA system components.




1
  DoD IG Report No. D-2009-047, “DoD Testing Requirements for Body Armor,” January 29, 2009,
addressed the FATs for one of the remaining seven contracts (W91CRB-04-D-0040). This report addresses
the LATs for contract W91CRB-04-D-0040.


                                                 1

                               Figure 1. Interceptor Body Armor




            Source: Army Program Executive Office Soldier

Contracts for Ballistic Inserts
The Army Research, Development and Engineering Command Acquisition Center
(RDECOMAC) awarded seven contracts, valued at $2.5 billion, to six contractors from
January 2004 to December 2006 for IBA ballistic inserts. Table 1 provides an overview
of products purchased, the quantities of products purchased, and the dollar value of each.

            Table 1. Army Contracts for Small Arms Protective Ballistic Inserts
       Contractor           Product        Contract Number   Maximum       Contract Value
                                                             Quantity
ArmorWorks                SAPI/ESAPI      W91CRB-04-D-0040      829,000        $461,000,000
Simula2                   SAPI/ESAPI      W91CRB-04-D-0042      829,000         461,000,000
Cercom                    SAPI/ESAPI      W91CRB-04-D-0043      829,000         424,470,000
Composix                  SAPI            W91CRB-04-D-0044      829,000         362,120,000
Armacel Armor             SAPI/ESAPI      W91CRB-04-D-0045      829,000         204,460,000
Ceradyne                  ESBI            W91CRB-06-C-0002      100,000          70,000,000
ArmorWorks                ESBI            W91CRB-06-D-0029      891,000         543,070,000
    Total                                                      5,136,000     $2,526,120,000


To meet the increasing demands for IBA, the Army anticipated awarding multiple
contracts. In 2004, RDECOMAC awarded five contracts for a total value of about
$1.9 billion for SAPIs. Four of these contracts were modified to produce ESAPIs. The
Army also awarded two contracts for ESBIs and carriers, for approximately $613 million,
in 2006.




2
    Simula was later bought out by BAE Systems


                                                 2

Quality Assurance
Standards
Defense Federal Acquisition Regulation Supplement, Subpart 246.102, “Policy,” requires
DoD departments and agencies to conduct audits to ensure that the quality of products
and services meets contractual requirements.

The contract purchase description (COPD) stated that LATs shall be conducted in
accordance with the American National Standards Institute (ANSI)/American Society for
Quality (ASQ) Standard ANSI/ASQ Z.1.4. ANSI/ASQ Z.1.4 states:

               When appropriate, the number of units in the sample shall be selected
               in proportion to the size of sub-lots or sub-batches, or parts of the lot or
               batch, identified by some rational criterion. The units from each
               part of the lot or batch shall be selected at random, as defined in
               ANSI/ASQ- A3534-2-1993.

ANSI/ASQ A3534-2-1993, “Drawing of Samples,” defines “random” as ensuring that all
items have the same probability of selection.

Oversight
The RDECOMAC, Program Executive Office Soldier (PEO Soldier), and Defense
Contract Management Agency (DCMA) were responsible for overseeing the seven
contracts. RDECOMAC provides acquisition and contracting support.

PEO Soldier, a component of TACOM Life Cycle Management Command, develops and
fields equipment to U.S. troops. PEO Soldier ensures that the soldier and everything he
or she wears or carries work together as an integrated system. The result is an overall
systematic design that enhances the soldier’s ability to accomplish individual and
collective tasks, improves quality of life, builds confidence, and saves lives.

A division of PEO Soldier, the Program Manager Soldier Equipment (PM SEQ)
develops, fields, and sustains equipment to advance warfighting capabilities. PM SEQ
procures, adapts, or develops sensors, lasers, clothing, other equipment, and survivability
items. PEO Soldier was responsible for the technical aspects of the seven body armor
contracts, such as developing and coordinating the product descriptions and
specifications, as well as scoring the FAT and LAT results.

On July 8, 2009, PM SEQ was restructured and renamed Project Manager Soldier
Protection and Individual Equipment. PM SEQ was the name of the division at the time
the contracts were awarded; therefore, we refer to Project Manager Soldier Protection and
Individual Equipment as PM SEQ. To oversee the contracts, PM SEQ designated the
chief scientist as the contracting officer’s technical representative (COTR). The COTR is
primarily responsible for monitoring and verifying the contractor’s compliance with the
contract’s technical requirements.



                                                    3

DCMA, a DoD combat support agency, provides contract management services, covering
pre-award and post-award activities. DCMA is responsible for ensuring contractor
compliance with contractual terms and conditions, ranging from cost and schedule
analysis to on-site surveillance. DCMA was responsible for inspection and acceptance of
the ballistic inserts at the contractors’ manufacturing facilities. After inspection, a
DCMA quality assurance representative (QAR) at the contractor’s facility selected and
shipped the ballistic insert samples for lot acceptance testing.

Requirements
Federal Acquisition Regulation (FAR) Part 46, “Quality Assurance,” prescribes policies
and procedures to ensure that supplies and services acquired under Government contract
conform to the contract’s quality and quantity requirements. The FAR further states that
quality requirements include inspection, acceptance, and warranty. The IBA COPD
provided the requirements for the material, design, FAT, LAT, and inspections for the
hard armor inserts. In addition, the COPD specified the environmental conditions,
ballistic threats, quantities, and ballistic insert sizes that the test lab must follow when
conducting a FAT. The ballistic threats are A, B, C, and D.3 The SAPI was designed to
provide protection from A, B, and C, while the ESAPI was designed to defeat an
additional threat, D.

The COPD also specifies when a fair shot occurs during the testing. According to the
COPD, the projectile must strike the ballistic insert at the required location and within the
required velocity range to be valid. The required location of the projectile impact was
between 0.75 and 1.25 inches from the edge of the ballistic insert. The required velocity
range depended on the ballistic threat used during testing. The COPD contained a
scoring system to determine acceptance or rejection of the test. In general, the
accumulation of more than six penalty points resulted in a failed FAT or LAT.

Internal Control Weaknesses Were Identified
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in quality assurance processes over the Army IBA Program. PM SEQ did
not ensure adequate oversight of FAT or LAT processes or adequately review, approve,
or document FAT and LAT results. We will provide a copy of the report to the senior
officials at the Army and DCMA.




3
    The specific ballistic threats are sensitive, so we refer to the threats as A, B, C, and D.


                                                          4

Finding A. Limited Assurance Obtained
From Ballistic Insert Testing
PM SEQ did not consistently enforce the requirements for testing the body armor ballistic
inserts. Specifically,

    	 PM SEQ approved two designs that did not have valid V50 tests.4 On two of
       seven contracts, PM SEQ procured and distributed 85,144 ESAPIs and
       6,884 ESBIs from the designs. PM SEQ officials indicated that they did not have
       concerns about the protection performance on these designs.

    	 PM SEQ did not always use the correct size ballistic insert for the FATs. On the
       four SAPI/ESAPI contracts we reviewed,5 33 of 34 ESAPI FATs used at least one
       incorrect size ballistic insert. DoD IG Report No. D-2009-047, “DoD Testing
       Requirements for Body Armor,” January 29, 2009, noted that for contract
       W91CRB-04 D-0040, test labs tested the wrong size insert multiple times on 18
       of 21 FATs. A PM SEQ project engineer claimed that performance was not
       dependent on size, that contractors made all ballistic inserts from the same
       material, so they would have the same ballistic performance.

    	 PM SEQ did not require a consistent methodology for measuring and recording
       velocity for all seven contracts. We identified 617 tests where velocity loss was
       not applied to determine strike velocity. In 63 of the 617 tests, additional testing
       would have been required had velocity loss been applied. This occurred because
       the COPD did not explicitly define how to calculate velocity or apply velocity
       loss value.

    	 PM SEQ did not require FAT weathered and altitude tests on six of seven
       contracts.6 The Director, Technical Management, claimed weathered and altitude
       tests take a week to complete, thus substituting with ambient tests expedited FATs
       to support an urgent wartime operational requirement for ballistic inserts.

    	 PM SEQ did not require adherence to humidity and temperature requirements on
       655 FATs and LATs for the seven contracts. The chief scientist claimed that a
       humidity deviation, either too high or too low, would not affect ballistic
       performance.




4
  V50 testing determines the velocity at which a complete or partial penetration of the armor is equally likely
to occur.
5
  Two of the seven contracts were for ESBIs, which were only produced in one size. First article testing for
contract W91CRB-04-D-0040 was addressed in DoD IG Report No. D-2009-047, “DoD Testing
Requirements for Body Armor,” January 2009.
6
  We did not review the FATs for contract W91CRB-04-D-0040; they were reviewed under DoD IG Report
D-2009-0047.


                                                      5

   	 PM SEQ did not prepare or maintain documentation on two of seven contracts to
      support acceptance of one FAT and one LAT. In addition, PM SEQ did not
      document changes to test procedures. This occurred because PM SEQ did not
      provide adequate oversight of IBA contracts.

A contributing factor to testing issues was that PM SEQ placed too much oversight
responsibility on the chief scientist, who served as COTR for at least 28 IBA contracts,
contracting officer’s representative (COR) for at least 4 test lab contracts, and master
scorer for at least 13,202 IBA ballistic tests.

PM SEQ did not meet contract requirements for executing ballistic tests; therefore, the
Army cannot be sure that ballistic inserts met the COPD. PM SEQ developed the COPD
to provide an appropriate level of protection for warfighters. As a result, the Army lacks
assurance that 5.1 million ballistic inserts acquired through the seven contracts provide
appropriate protection.

Testing Process for IBA Ballistic Inserts
After contract award and before the contractor begins full rate production, RDECOMAC
requires a FAT to ensure that the selected contractor can manufacture ballistic inserts to
the contract requirements. RDECOMAC can waive a FAT if the contractor previously
furnished the same approved product that met all contract requirements. Additionally,
RDECOMAC requires a new FAT if the contractor makes any changes to the approved
model/materials or manufacturing processes during the course of the contract. During the
production phase, RDECOMAC requires LATs to detect random defects before
Government acceptance. PM SEQ is responsible for preparing the technical requirements
and provides RDECOMAC the product quality requirements, such as testing and
inspection, for incorporation in the contracts. Further, PM SEQ is responsible for
reviewing all ballistic tests results to determine whether the inserts were tested in
accordance with the contract requirements detailed in the COPD.

Ballistic testing is conducted to ensure that the ballistic inserts provide the required
protection before issuing them to warfighters. The test requirements the ballistic inserts
must meet are detailed in the COPD. During testing, ballistic inserts are attached to a
clay block, also referred to as clay backing material, which substitutes for a soldier’s
body mass.

The COPD divides ballistic testing into two categories: V0 Ballistic Resistance and V50
Ballistic Limit. The COPD required 13 V0 tests and 4 V50 tests for the ballistic inserts.
V0 testing is conducted by shooting a specific projectile at a given velocity at a ballistic
panel to determine whether the armor provides full protection. The required velocities
for the projectiles are detailed in the COPD. One of the parameters that should be
considered when measuring V0 results is back face deformation (BFD); the depth of the
crater left in the clay for each partial penetration represents the blunt force trauma
inflicted on the wearer, which can contribute to injury, incapacitation, or death. The BFD
should not exceed 1.70 inches, or about 43 millimeters (mm). V0 results are based on


                                             6

three shots, two at 0 degree obliquity7 and one at 30 degree obliquity. V50 testing
determines the velocity at which a complete or partial penetration of the armor is equally
likely to occur. V50 results are based on a minimum of six shots; three complete
penetrations and three partial penetrations, also known as Average V50.

The COTR devised the V0+ test, which combined the V0 resistance to penetration and the
V50 ballistic limit tests. The V0+ test procedure extended the V0 by shooting three
additional shots on a single ballistic insert at an elevated velocity. The objective
velocities for the additional three shots were at or above the V50 velocity requirement.
The COTR accepted this V0+ test as evidence that the design met both the V0 and the V50
requirements if all shots were partial penetrations, the first three shots met the BFD
requirements, and the average velocity of all six shots was higher than the V50
requirement. Table 2 presents the volume of ballistic inserts tested.

            Table 2. First Article and Lot Acceptance Tests for Army Contracts
        Contract             Product            First Article Testing           Lot Acceptance Testing

                                               Tests            Inserts         Tests            Inserts
    W91CRB-04-D-0040       SAPI/ESAPI          N/A               N/A            364               2,036
    W91CRB-04-D-0042       SAPI/ESAPI           26               440            393               2,219
    W91CRB-04-D-0043       SAPI/ESAPI            5                55             38                246
    W91CRB-04-D-0044         SAPI                1                24              9                 48
    W91CRB-04-D-0045       SAPI/ESAPI            2                39             53                204
    W91CRB-06-C-0002         ESBI                2                44             69                606
    W91CRB-06-D-0029         ESBI                8               150            296               1,672
    Total                                        44              751            1,222            7,031


Ballistic Inserts Were Not Tested Consistently
PM SEQ did not enforce compliance of ballistic testing according to the requirements in
the COPD. The tests we reviewed were incomplete, executed with the wrong size
ballistic insert, or performed in environmental test conditions outside of the range
specified by the COPD. In addition, PM SEQ did not apply a consistent methodology
when evaluating the ballistic tests.

Invalid Test Results
On two of the seven contracts, PM SEQ did not conduct all of the V50 tests required in
the COPD. According to the COPD, any failure to meet or exceed the V50 requirements
at threat A, B, or C will result in the failure of the design.

	 PM SEQ passed 16 ESAPI FAT designs for contract W91CRB-04-D-0042. Of those
   designs, PM SEQ accepted one without a valid V50 test or equivalent V0+ test. The


7
 Obliquity is a measure, normally in degrees, of the extent to which the impact of a projectile on an armor
material deviates from a line normal to the target.


                                                       7

    FAT conducted on February 10, 2005, did not have a valid test for either threat A or
    C. For both threats, the projectiles did not reach the required velocity for the test to
    be valid. PM SEQ procured 85,144 ESAPI ballistic inserts, valued at $59.7 million,
    from the design. PM SEQ accepted these ballistic inserts even though the test lab did
    not perform the test in accordance with the COPD.

	 PM SEQ awarded contract W91CRB-06-D-0029 to ArmorWorks, and on
   December 19, 2006, a FAT was conducted on ESBI design MP2S1. Even though this
   FAT passed, it did not have a valid test for threat B because the velocities of the
   projectiles did not meet the COPD requirement. The test lab entered incorrect
   velocities into the FAT scoring summary sheet, and PM SEQ used those velocities to
   validate the test, but the recorded velocities on the actual test results were lower. On
   June 14, 2007, design MP2S1 was retested and passed a FAT that met the
   requirements in the COPD. However, at that time, PM SEQ had already accepted
   6,884 ESBIs of design MP2S1.

PM SEQ representative did not have concerns about the protection performance of the
two designs because the ballistic inserts were engineered to handle a threat over and
above the threat experienced in theater. Although these designs did not fail testing, the
tests were not based on COPD requirements.

Incorrect Ballistic Insert Sizes Tested for FATs
PM SEQ did not ensure that FATs included the correct sizes for all four SAPI/ESAPI
contracts.8 The SAPI/ESAPI ballistic inserts were made in extra-small, small, medium,
large, and extra-large sizes. Of 34 FATs, 33 were not conducted in accordance with the
COPD requirements to test different size ballistic inserts. Of 558 ballistic inserts tested
during the 34 FATs, 167 (30 percent) were not the required size. Table 3 identifies, by
contract, the number of FATs that contain an incorrect size ballistic insert and the total
number of ballistic inserts tested that contain an incorrect size ballistic insert.

    Table 3. Contracts With FATs That Used Ballistic Inserts of an Incorrect Size
                                                 FATs With                            Incorrect Size
                                                                   Total Ballistic
          Contract                FATs          Incorrect Size                           Ballistic
                                                                   Inserts Tested
                                               Ballistic Inserts                         Inserts
    W91CRB-04-D-0042                26                26                 440               146
    W91CRB-04-D-0043                5                  4                 55                 9
    W91CRB-04-D-0044                1                  1                 24                 4
    W91CRB-04-D-0045                2                  2                 39                 8
     Total                          34                  33               558                167




8
 Two of the seven contracts were for ESBIs, which were only produced in one size. One of the seven
contracts, W91CRB-04-D-0040, was addressed in DoD IG Report No. D-2009-047, “DOD Testing
Requirements for Body Armor,” January 29, 2009.


                                                   8

DoD IG Report No. D-2009-047, “DoD Testing Requirements for Body Armor,”
January 29, 2009, noted that for contract W91CRB-04 D-0040, design MP2S2, the insert
size was wrong many times during 18 of the 21 FATs but only one retest was conducted.
Lab personnel initially tested a small, medium, and large insert at threat D under ambient
conditions instead of testing an extra-small, large, and extra-large insert, as required by
the test plan.

Reduction of Extra-Small Ballistic Inserts Tested
The COPD required the test labs to use five extra-small ballistic inserts during FATs.
PM SEQ’s implementation of the V0+ test and elimination of the weathered testing
reduced the number of extra-small ballistic inserts tested from five to one.

Inserts Accepted Without Any Ballistic Testing
PM SEQ procured and distributed 10,316 ESAPIs whose testing was incomplete.
Contract W91CRB-04-D-0042, PM SEQ approved six designs for production of extra-
small ballistic inserts without having that size tested. One of those six designs received
FAT approval without the contractor even submitting an extra-small ballistic insert for
testing. PM SEQ ultimately procured 2,412 extra-small ESAPIs from four of these six
designs.

Another design from contract W91CRB-04-D-0042 did not receive FAT approval for
production of small ESAPI ballistic inserts. PM SEQ procured 3,238 small ballistic
inserts from 13 lots of this design. In addition, the Master Lot Report did not
differentiate between two possible ESAPI designs for 43 other lots. Because the two
FATs approved different sizes, PM SEQ procured and distributed 4,666 small ESAPIs
from FATs that did not include tests or approval for this size.

Effect of Ballistic Insert Size on Performance
A PM SEQ Project Engineer stated that ballistic insert performance is not dependent on
its size. He emphasized that all ballistic inserts are manufactured from the same material
and, therefore, they would all have the same ballistic performance. However, a staff
specialist with Live Fire Test and Evaluation for the Director, Operational Test and
Evaluation (DOT&E) stated that:

               For reasons of adopting best practices and concern over the potential
               issues of performance differences related to insert size, the Army with
               DOT&E’s support, changed lot requirements to be of homogeneous
               size. Subsequent to adopting this policy there are indications that
               performance differences exist based on insert size.

               I believe the composition of all insert sizes is identical. It is possible
               though for insert size to affect performance. Recent testing shows that,
               in some cases, back-face deformations are higher for large and extra
               large designs from specific contractors.

DOT&E is currently evaluating this correlation in Phase II of their IBA standardization
process. Regardless, PM SEQ should not approve a ballistic insert size unless it


                                                   9

conforms to the COPD requirements. The COPD required PM SEQ to test ballistic insert
sizes under particular conditions, and deviating from those requirements decreased
assurance that ballistic inserts can meet the intended level of protection.

Inconsistent Calculations of Velocity
PM SEQ did not require a consistent methodology for measuring and recording velocity
on the test results sheets for all seven contracts. The test labs subjected ballistic inserts to
ballistic threats within a range of velocities specified in the COPD. To determine the
velocity at impact (or strike velocity), the test lab reduced the measured velocity by the
amount of velocity lost between the measuring device and the point of impact. If the
strike velocity was outside the range specified in the COPD, the test labs should have
tested another ballistic insert. However, the test labs inconsistently incorporated velocity
loss into the final recorded velocity. This occurred because the COPDs did not explicitly
define how to calculate velocity or how to apply the velocity loss.

Of approximately 13,000 test shots we reviewed, we identified 89 shots that would have
been outside the required velocity range if the test labs had properly accounted for the
velocity loss in their recorded velocity measurement. This resulted in 55 ballistic inserts
that PM SEQ should have required a retest.

The significance of correctly applying the velocity loss calculation was demonstrated in a
July 25, 2005, FAT for contract W91CRB-04-D-0042. The acceptable velocity range
required by the COPD was between 2,850 and 2,900 feet per second (FPS). The test lab
incorrectly subtracted a velocity loss of 6 FPS from the measured velocity of 2,907 FPS
instead of the 7 FPS it had listed on its FAT scoring sheet. This math error resulted in the
test lab recording an over-velocity shot of 2,901 FPS, which rendered the test invalid. If
the test lab had correctly applied the velocity loss of seven FPS, the original shot would
have been within the acceptable velocity (2,900 FPS), and PM SEQ would have awarded
1.5 points for the limited failure to the original shot on this ballistic insert. These
additional penalty points would have resulted in the failure of the FAT. Instead, the test
lab tested another ballistic insert, which resulted in a passing score. This allowed PM
SEQ to pass the FAT and accept 33,696 ESAPI ballistic inserts of this design at a cost of
$24 million.

The point at which velocity is measured should not be open to interpretation. To avoid
inaccurate test results and inconsistency in calculating the strike velocity, PM SEQ must
specifically define a standardized procedure for calculating the velocity of projectiles and
the values of velocity loss to be applied per threat, because a deviation of 1 FPS can alter
the acceptance or rejection of a lot or design.

Weathered and Altitude Tests Not Performed
PM SEQ did not require weathered and altitude tests, as specified in the COPD, for six of
the seven contracts and 43 out of 44 FATs. The COPD included criteria for weathered
and altitude environmental testing on every FAT. The weathered test subjected a ballistic
insert to moisture and light, which strained the ballistic inserts beyond the ambient test.



                                              10 

Table 4 shows that one weathered and altitude test was performed for 1 of 44 FATs on
one of six contracts.
                Table 4. Weathered and Altitude Tests Not Performed
                                                 Number of        Number of FATs Missing
          Contracts               Product
                                                   FATs          Weathered and Altitude Tests
     W91CRB-04-D-0040             ESAPI            N/A*                     N/A*
     W91CRB-04-D-0042             ESAPI             26                       26
     W91CRB-04-D-0043             ESAPI              5                       5
     W91CRB-04-D-0044              SAPI              1                        1
     W91CRB-04-D-0045             ESAPI              2                       2
     W91CRB-06-C-0002              ESBI              2                        2
     W91CRB-06-D-0029              ESBI              8                        7
      Total                                          44                         43
*We did not review the FATs for contract W91CRB-04-D-0040; they were reviewed under DoD IG Report
D-2009-0047.

PM SEQ routinely eliminated or substituted these tests with ballistic inserts shot at
ambient conditions to expedite FATs. The PM SEQ Director, Technical Management,
stated that weathered and altitude tests normally take a week to complete. According to
the director, the intent of substituting the weathered and altitude tests with ambient tests
was to expedite FATs in support of the urgent wartime operational requirement for IBA.

The director asserted that an additional reason that they did not conduct weathered and
altitude tests was because the ceramic ballistic inserts are solid structures that are not
sensitive to reduced pressure and moisture. PM SEQ offered no evidence that failure to
conduct these tests did not affect the results of ballistic testing. PM SEQ made the
decision to meet the urgent operational need to supply soldiers with ballistic inserts.
However, the ballistic inserts are a significant part of the soldier’s protection system.
Although we cannot predict the impact an additional week for testing would have on
warfighters’ protection, substitution of the weathered and altitude tests with the less
stringent ambient tests decreases assurance that the ballistic inserts will meet the intended
level of protection.

Humidity and Temperature Out of Range
PM SEQ did not require adherence to the appropriate humidity and temperature
conditions dictated by the COPD on all seven contracts. According to the COPD, the
                                                   acceptable environmental
      Of 1,266 FATs and LATs we analyzed,          temperature range for testing was
        PM SEQ accepted the results of 655         between 58 and 78 degrees
   (52 percent) with humidity measurements or      Fahrenheit. The acceptable relative
    temperatures outside the acceptable range.     humidity for testing was between 40
                                                   and 60 percent. Of 1,266 FATs and
LATs we analyzed, PM SEQ accepted the results of 655 (52 percent) with humidity
measurements or temperatures outside the acceptable range.




                                               11 

The PM SEQ Chief Scientist said that a change in humidity, regardless of being too high
or low, should not affect ballistic performance. However, PM SEQ included these
requirements in new Next Generation Small Arms Protective Insert (XSAPI) contracts.
We question why the requirement was included in XSAPI contracts if the environmental
conditions were not significant. In addition, although the chief scientist and the specialist
did not believe the test conditions would affect results, they provided no evidence to
support their opinion. As long as the humidity and temperature ranges remain in the
contract, PM SEQ should ensure that testing complies with those requirements.

PM SEQ Justification on Inconsistent Testing
The chief scientist and Director, Technical Management, stated they made test procedure
changes to make the process more efficient by saving time or eliminating redundancies.
They claimed they disregarded certain tests because they had no impact on ballistic
performance and because, for some tests, no specific requirements existed. The Director,
Technical Management, emphasized that ballistic inserts were over engineered to handle
a threat above and beyond what was experienced in theater, both in caliber and velocity,
which would compensate for the variability in test procedures.

PM SEQ provided no documentation to support its decisions to deviate or make
processes more efficient or its decisions that certain tests had no impact. Without
documentation, we cannot validate PM SEQ decisions. We did not test ballistic inserts;
therefore, we cannot conclude how deviations affected ballistic performance.

Critical Decisions Were Not Documented
PM SEQ did not prepare or maintain documentation to support critical decisions
regarding the passing or accepting of one FAT and one LAT. FAR 46.104, “Contract
Administration Office Responsibilities,” requires the contract administration office to
maintain suitable performance records reflecting decisions regarding the acceptability of
the products, processes, and requirements. Without adequate documentation, PM SEQ
cannot support that the body armor purchased on the subject contracts complies with
requirements set forth in the contracts to ensure the safety of warfighters. These two
undocumented FAT and LAT resulted in the procurement of 34,236 inserts at a cost of
$24.5 million.

PM SEQ Did Not Document Changes to FAT Score
PM SEQ did not properly document and support its decision to use an alternative method
for measuring BFD. For contract W91CRB-04-D-0042, PM SEQ passed the FAT on
July 25, 2005, with a score of 6 and issued a FAT approval letter. In general, the
accumulation of more than 6 points results in a failed FAT. We determined that this FAT
should have failed with a score of 7. One ballistic insert (No. 882251) had a BFD of 45
mm, and according to the COPD, 1 additional point should have been added to the FAT
score. However, PM SEQ did not apply the point to this ballistic insert, and the FAT
passed.




                                             12 

The chief scientist provided a copy of the FAT with a sticky note displaying a
mathematical formula used to reduce the BFD measurement to “42-43 mm.” The chief
scientist stated that he used an offset-correction technique to adjust the BFD from a
failing 45 mm to a passing 42-43 mm. We do not consider the sticky note on the FAT
scoring sheet as supporting documentation. There is no documentation to support why
this ballistic insert did not incur the additional point, which would have resulted in a
failed FAT.

The ballistic performance of insert 882251 was tested under low-temperature conditions.
                                                   The COPD called for testing low-
    There is no documentation to support           temperature conditions with threat D on a
  why this ballistic insert did not incur the      small ballistic insert.9 The chief scientist
      additional point, which would have           asked for supplemental testing, performed
           resulted in a failed FAT.               on July 25, 2005, on three additional
                                                   ballistic inserts for this design to ensure
that the design met ballistic standards. The test lab tested one medium ballistic insert
against threat D, but only shot it once instead of three times, as required by the COPD.
The test lab tested the other two ballistic inserts against threats that were not required for
FAT approval purposes. In addition, the supplemental tests only used ambient conditions
and not the required low temperature. Although the ballistic inserts passed, the test lab
did not replicate the original test conditions. Consequently, these supplemental tests did
not increase confidence that this design could provide protection in low-temperature
conditions.

PM SEQ Did Not Document Contested LAT
PM SEQ did not properly document and support its decision to overturn a potential
catastrophic failure as defined by the COPD. PM SEQ accepted ballistic inserts on
contract W91CRB-04-D-0040 although a LAT had a BFD of 48 mm. PM SEQ officials
did not adequately document their decision to accept the lot even though the COPD
considers a BFD of 48 mm to be a catastrophic failure. The chief scientist claimed that
the lot did not fail because the shot was too close to the edge. The COPD requires that
the first shot be between .75 and 1.25 inches from an edge. PM SEQ did not document
the incident.

The test lab conducted the LAT on lot 0935-MD2S2 on March 28, 2007. The first shot
on the second ballistic insert, serial number 0426675, resulted in a BFD of 48 mm. The
contractor determined that the shot was too close to the edge and elected to have another
ballistic insert tested immediately. The contractor shipped the ballistic insert in question
to the chief scientist for inspection. The chief scientist indicated that he and others at PM
SEQ agreed and requested that a product manager at PM SEQ review the data. However,
PM SEQ staff did not take any photographs of the contested ballistic insert or document
its serial number.


9
  Threat D is a ballistic threat considered a more robust surrogate for the actual threat encountered in
theater.


                                                      13 

On March 29, 2007, an additional ballistic insert was tested and achieved a passing score.
Based on this test, PM SEQ accepted and distributed the lot. Figure 2 contains a
photograph of the ballistic insert, taken by the contractor and provided to us by PM SEQ.
However, there were no identifiable serial numbers or tile numbers to indicate that the
ballistic insert in question was the same as the one in the photograph. We asked to see
the ballistic insert, but PM SEQ staff could not locate it.

                Figure 2. Photograph of the Contested Ballistic Insert




                    Source: Army Program Executive Office Soldier

In instances that involve a disputed test, PM SEQ should maintain adequate
documentation in the event that future questions are raised. Documentation should
include photographs, x-rays, serial numbers, or the actual item, as appropriate.

Contractor Employees Performed Inherently
Governmental Functions
PM SEQ allowed a contractor employee to perform an inherently governmental function.
Specifically, the contractor employee sent an e-mail to the contractor, PM SEQ, DCMA
Phoenix, and RDECOMAC personnel approving lot 0930-MD2S2 and rejecting lot 0935-
MD2S2.




                                           14 

As discussed earlier, lot 0935-MD2S2 was contested by the contractor to the chief
scientist, a Government official. The chief scientist instructed a support contractor
employee to “review the data and make the call.” The contractor employee reversed his
initial opinion and sent an e-mail to DCMA Phoenix approving the lot. The contractor
employee should not have approved the lot. The lack of PM SEQ review resulted in the
contractor performing an inherently governmental function, which is a violation of
FAR 2.101, “Definitions of Words and Terms,” and FAR 7.503(c)(12)(v), “Inherently
Governmental Functions, Policy.”

As noted in FAR 2.101, inherently governmental functions do not normally include
gathering information for—or providing advice, opinions, recommendations, or ideas
to—Government officials. A contractor can be used to perform the tests and report the
test results to PEO Soldier. However, FAR 2.101 includes the making of value
judgments as an inherently governmental function. FAR 7.503(c)(12)(v) states that
administering contracts, including accepting or rejecting contractor products, is an
inherently governmental function, but Government personnel must perform the value
judgment leading to the decision of whether the test results in the acceptance or rejection
of the lots.

PM SEQ implemented new procedures for scoring ballistic test results. Two PM SEQ
personnel will independently score the test results, then the master scorer or Director,
Technical Management, will independently review and score the test. The master scorer
will compare the results against the other two scoring results, resolve any inconsistencies,
and issue a final determination to retest, accept, or reject a lot.

The Chief Scientist Had Too Much Oversight
Responsibility
The PM SEQ Chief Scientist served as the COTR on at least 28 IBA contracts from 2004
to 2008. The 28 contracts, worth $5 billion, were awarded to 12 different contractors
located in seven different states. As the COTR, the chief scientist’s responsibilities
included monitoring and verifying contractor compliance with contract technical
requirements and maintaining communications with the contractors.

In addition to his duties as the COTR for the IBA contracts, the chief scientist was the
COR for at least four test lab contracts during this same period. The COR has similar yet
more expansive responsibilities than the COTR. As the COR on the test lab contracts,
the chief scientist was responsible for maintaining details on the contractors’ progress and
submitting monthly certifications to the contracting officer that the work performed and
materials purchased were within the scope of the contract. He was also responsible for
advising the contracting officer of any problems and for providing monthly reports on the
contractors’ compliance with contract requirements as detailed in the surveillance plan.

The chief scientist was also the master scorer of all IBA ballistic tests from 2004 to 2008.
The master scorer is responsible for reviewing all ballistic test data, calling for retests
when the initial test is not compliant with the COPD, and reviewing scores from two


                                            15 

other ballistics scorers. The master scorer ultimately decides whether to accept the IBA
components for further manufacturing and distribution or to reject them. On the seven
ballistic insert contracts we reviewed, the test labs conducted 13,204 IBA ballistic tests
and recorded the data for the master scorer to review, comprising:

      7 preliminary design models consisting of 236 shots onto 145 ballistic inserts,
      44 FATs consisting of 1,308 shots onto 751 ballistic inserts, and
      1,222 LATs consisting of 11,658 shots onto 7,031 ballistic inserts.

The chief scientist also had other duties and responsibilities, as documented in his
position descriptions, including:

      evaluating lab research,
      providing scientific and technical counsel,
      conducting theoretical and experimental studies,
      speaking at institutions of higher education and military conferences,
      improving compatibility with warrior combat clothing, equipment, and weapon
       systems, and
      representing the U.S. Army in the North Atlantic Treaty Organization.

As the COTR, COR, master scorer, and chief scientist, one person had control over
multiple key aspects of IBA procurement and quality assurance.

The COTR and COR appointment memoranda prohibited the chief scientist from taking
any actions that involved a change in unit price, total price, quantity, quality, delivery, or
other terms and conditions of the contract. However, DoD IG Report No. D-2009-047,
“DoD Testing Requirements for Body Armor,” January 29, 2009, disclosed that the
COTR made an unauthorized change to contract W91CRB-04-D-0040 by instructing the
test labs to deviate from the COPD and use an offset-correction technique (a
mathematical formula used to adjust the BFD). The PM SEQ COTR communicated this
change by e-mail to the test lab without approval from the contracting officer. The report
also noted that PM SEQ officials were present at the test lab for only 4 of 21 FATs for
contract W91CRB-04-D-0040.

The extent of the COTR, COR, master scorer, and chief scientist responsibilities indicates
a heavy workload covering a variety of duties for one person. This heavy workload may
have contributed to the testing issues and the lack of documentation needed to support
critical decisions regarding the COPD requirements.

Management Actions
Since the award of these contracts, PM SEQ has taken corrective actions in response to
prior audits by the DoD IG, the Government Accountability Office (GAO), and the Army
Audit Agency (AAA), as well as conditions identified in this report. In August 2009,
PM SEQ established an Executive Director for Quality, Process, and Compliance, with
responsibility for verifying and implementing improved management controls, including


                                             16 

development of tools for recording key information, events, and decisions. The
Executive Director also ensures that decisions are reviewed as changes occur in
requirements, contractor performance, technological advances, and the operational
environment.

PM SEQ updated the test operating procedures for ballistic testing of IBA inserts using
clay backing. PM SEQ also updated the purchase description for ESAPIs. PEO Soldier
issued the final test plan for IBA improvements, analysis plans for ESAPIs in inventory
and theater, an analysis plan for ESAPIs and XSAPIs, and a purchase description for
XSAPIs in response to prior audits. In addition, PM SEQ has created a database for all
FATs; LATs; DD 250s, “Material Inspection and Receiving Reports”; waivers; and other
pertinent information for the 28 contracts assessed in the DoD IG Report No. D-2008-
067, “DoD Procurement Policy for Body Armor,” March 31, 2008, as well as future
contracts. This database was used for official test and scoring data beginning in 2008.

In December 2010, PM SEQ issued a standard operating procedure that requires an Army
representative to be present for all FATs and LATs and instituted a three-tier scoring
system. PM SEQ hired three civilian engineers to the scoring team. PM SEQ also has
hired/promoted a senior systems engineer and a senior quality engineer. The team and
supporting engineers have since been assigned COR responsibilities. As a result of these
changes, the master scorer duties and COR duties were divided among multiple
individuals; PM SEQ now has seven test scorers, two of which are master scorers. The
master scorer develops a recommendation for the contracting officer, and the contracting
officer issues the final approval letter to the contractor and to DCMA to authorize
production. Further, appointment letters for CORs outlined contracting officers’
monitoring and administrative responsibilities related to body armor contracts, to include
maintaining files of all contract-related documents. Therefore, we are not making a
recommendation related to the Chief Scientists’ level of oversight responsibility.

In addition, the U.S. Army Test and Evaluation Command established the Data
Authentication Group to act as an advisory committee to the Body Armor Working
Integrated Product Team and U.S. Army Test and Evaluation Command Science Team.
The Data Authentication Group will offer advice on the suitability of the data for analysis
and evaluation in accordance with U.S. Army Test and Evaluation Command Pamphlet
73-1, Appendix N, September 2004, for Aberdeen Test and Evaluation Center Data
Authentication Groups. The Data Authentication Group met routinely during testing to
perform its charter mission. The U.S. Army Test and Evaluation Command will validate
the use of commercial labs for LATs. Currently, the U.S. Army Test and Evaluation
Command is evaluating two test laboratories.

The Assistant Secretary of the Army for Acquisition, Logistics and Technology
established an independent team of personnel from the U.S. Army Materiel Command
Quality Federation to observe testing and to provide an independent assessment of IBA
test procedures. This team observed testing of inventory and theater IBA ballistic inserts
and made recommendations to improve test procedures.



                                            17 

In November 2009, the Secretary of the Army announced that the National Research
Council would perform an independent assessment of ongoing IBA testing:

               The purpose of the NRC assessment is to ensure that the Army
               maintains the highest standards for testing processes and protocols, thus
               addressing concerns raised by the GAO about current testing
               procedures.

According to a GAO report, GAO-10-119, October 2009, Warfighter Support:
Independent Expert Assessment of Army Body Armor Test Results and Procedures
Needed Before Fielding, the Army has taken significant steps to conduct tests in a
controlled environment. For example, the Army has implemented the consistent
documentation of testing procedures using audio, video, and other electronic means and
extensive efforts to maintain proper temperature and humidity in the test lanes.
Furthermore, the Army has spent about $10 million over the last few years upgrading the
existing facilities with state-of-the-art capability to support research and development and
production qualification testing for body armor.

In consideration of management actions taken, we limited our recommendations to
encompass only those issues not already addressed by the Army.

Conclusion
Regardless of how the IBA inserts are engineered, variations in test procedures reduce
assurance that PM SEQ procured ballistic inserts that conforms to contract requirements.
PM SEQ cannot predict the impact on safety for FATs conducted using the incorrect
ballistic insert size and LATs conducted outside of the required temperature range
because the effect of these variables was not determined. PM SEQ did not consistently
enforce COPD requirements for testing and accepting IBA inserts on all seven contracts.

Consequently, the Army cannot be sure that ballistic inserts meet COPD requirements.
As a result, the Army lacks assurance that 5.1 million ballistic inserts acquired through
the seven contracts provide appropriate protection. We did not test ballistic inserts
purchased through the seven contracts; therefore, we could not conclude whether the
deviations affected ballistic performance.


Management Comments on the Finding and Our
Response
Management Comments
The Deputy Assistant Secretary of the Army for Acquisition and Systems Management
stated that the U.S. Army conducts rigorous and extensive testing of body armor to
ensure that it meets U.S. Army standards and is safe for use in combat. The U.S. Army’s
test strategy requires that inserts pass various extreme operating environments, Ballistic
Limit testing (V50 test) and Resistance to Penetration testing (V0 test) during first article
testing. Resistance to Penetration testing is also performed during lot acceptance testing


                                                 18 

to verify that the product that passed first article testing maintains its demonstrated
quality level. The Army’s test requirements verify that body armor meets U.S. Army and
DoD standards before being issued to soldiers. Every soldier’s ballistic insert is scanned
prior to deployment and rescanned during his or her mid-tour leave as part of continuous
surveillance testing after acceptance. The plates identified as having cracks or internal
flaws are removed from inventory and destroyed.

Additionally, the DOT&E standardized first article testing by issuing a hard body armor
standard protocol for ballistic testing on April 27, 2010. The protocol establishes
standard testing references, procedures, and analytical processes for hard body armor
testing. The Army began using this protocol on May 4, 2010. This protocol is now a
common standard in body armor testing across DoD.

Our Response
We appreciate the management comments. We agree that PEO Soldier has taken
numerous actions to improve the quality assurance process since the award of these
contracts. We agree that incorporating the DOT&E standardized FAT protocol for hard
body armor ballistic testing into the contract will assist PM-SEQ personnel in ensuring
compliance with contract terms and conditions. We urge diligence as the protocol can
only be effective if it is closely followed.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commanding General, Program Executive Officer
Soldier:

        1. Revise the contract purchase description for Interceptor Body Armor
inserts to clearly define strike velocity as the velocity measurement used for fair shot
determination decisions.

Management Comments
The Deputy Assistant Secretary of the Army for Acquisition and Systems Management
responded for the Commander, PEO Soldier. He agreed and stated that PEO Soldier
issued both the ESAPI and the XSAPI purchase descriptions in 2010. Projectile velocity
determination is defined in Appendix D in both documents, and a paragraph has been
added to both documents to define over and under velocities, fair impacts, and complete
penetrations.




                                           19 

        2. Require that weathered and altitude tests are performed and documented
in accordance with the contract purchase description for Interceptor Body Armor
inserts.

Management Comments
The Deputy Assistant Secretary of the Army for Acquisition and Systems Management
responded for the Commander, PEO Soldier. He agreed and stated that DOT&E
incorporated the resistance test and altitude test into the hard armor protocol on April 27,
2010, and they are DoD standard tests for first article testing of ballistic inserts.

       3. Perform a risk assessment of lot 0935-MD2S2, contract W91CRB-04-D-
0040, to determine whether any of the Interceptor Body Armor inserts may not
perform as required by the contract purchase description.

Management Comments
The Deputy Assistant Secretary of the Army for Acquisition and Systems Management
responded for the Commander, PEO Soldier. He agreed and stated that the Army will
perform a risk assessment of lot 0935-MD2S2, contract W91CRB-04-D-0040, to
determine whether any of the IBA inserts will not perform as required by the contract
purchase description. The risk assessment will be completed no later than October 2011.

Our Response
Comments from the Deputy Assistant Secretary of the Army for Acquisition and Systems
Management are responsive, and the actions meet the intent of the recommendations.




                                             20 

Finding B. Improvements Needed for IBA
Insert Test Sample Selection Process
DCMA Phoenix’s sample selection processes did not result in a statistically
representative sample for LATs, and, at one location, the QAR used an inappropriate
methodology to replace defective items within samples. Specifically, the QARs did not
use an appropriate statistical random sampling methodology to select the sample for the
LATs. This occurred because the QARs incorrectly believed that selecting the IBA
inserts from different stacks or pallets resulted in a random sample and provided every
ballistic insert the same probability of selection. As a result, PM SEQ cannot assure with
statistical accuracy that the IBA inserts meet the requirements in the contracts to ensure
the safety of warfighters.

DCMA Quality Assurance Process
According to its Web site, DCMA provides a full spectrum of contract services, including
product and quality assurance services, to ensure products are delivered on time, at
projected cost, and meet performance requirements. DoD Components generally
delegate these responsibilities to DCMA in writing through the contract. According to
three of the seven contracts, DCMA Phoenix was responsible for inspecting the ballistic
inserts at BAE Systems and ArmorWorks manufacturing plants.

LAT Sample Selection
The LAT sample selection process begins when contractor personnel notifying DCMA
QARs that a lot is ready for a LAT. Depending on the lot size, the QAR selects three,
five, or eight samples. Figure 3 shows examples of lots ready for sample selection.

The QAR selects the samples and observes as a contractor employee verifies that weight
and dimensions comply with contract requirements. The contractor employee records the
serial numbers on the DD 1222, “Request for and Result of Tests,” and the QAR signs it.
The QAR then sends the samples and the DD 1222 to the applicable test lab for LATs.




                                            21 

                Figure 3. Hard Body Armor Lots Ready for Sample Selection




     Source: Auditor Photographs
 


DCMA Sampling Methodology May Not Identify Defects
DCMA Phoenix QARs did not use an appropriate sample selection process for selecting
of ballistic inserts, and their method did not ensure that all items in the lot had the same
probability of being selected for testing. This negated the sample test results and
diminished the possibility the test labs would identify defects during LATs. In April
2010, we interviewed two QARs responsible for overseeing the BAE Systems and
ArmorWorks contracts to identify the sampling methodology used to select ballistic
inserts for LATs.

Both QARs selected the required number of ballistic inserts for LATs by pointing to and
removing them from different stacks or pallets. Our observation10 of the process for
contracts W91CRB-09-D-0002 and M67854-06-D-3072 confirmed that this was the
method the QARs followed to select the ballistic inserts from different stacks. The
method of pointing to and removing the inserts from the stacks or pallets did not ensure
selection of a representative sample for the LATs. The QARs incorrectly believed that
pointing to and removing sample ballistic inserts from different stacks or pallets was
random and provided the same probability of selection. However, the sampling
methodology the QARs used was subject to potential bias, deliberate or unintentional, in
the sample selection.


10
     See Appendix A for details on our observation.


                                                      22 

The purpose of the LATs was to identify defects that occurred during the manufacturing
process and to ensure that ballistic inserts were consistently meeting the COPD
requirements. To be effective, the LAT needed to rely on a statistically derived process
that resulted in the selection and testing of a representative sample to ensure the product
met the contract requirements. The statistically derived representative sample must be
selected through a very specific and defined methodology where the outcome is not
predictable or biased. This means all items in the population have the same probability of
being selected. The sampling methodology that DCMA Phoenix QARs used did not
provide a statistically derived representative sample. Without a representative sample,
the Government cannot rely on the LAT results.

Damaged Sample Items Were Replaced With
Nondefective Items
The QAR for ArmorWorks stated that the vendor x-rayed every ballistic insert selected
for a LAT because there were instances of the test lab receiving damaged or cracked
ballistic inserts. When we asked what happened when the x-ray identified a cracked
ballistic insert, the QAR responded that she would select another ballistic insert from the
lot, which the contractor would then x-ray. If the new ballistic insert was free from
cracks, the QAR would substitute it in place of the cracked ballistic insert. The QAR did
not consider the omission of the cracked ballistic insert as a defect in the sample.

The replacement of the defective ballistic inserts in the LAT sample had serious
implications. This action voided the representative sample, and no inference could be
made from the LAT to the overall lot.

Management Actions
When informed of our concerns about the replacement of the ballistic inserts, the
Director, DCMA, initiated a review of the issue in April 2010. DCMA stated that the
replacement of the defective ballistic inserts occurred only at ArmorWorks. DCMA
Phoenix research revealed two nonconformance reports since October 2007 that affected
two lots: one for an October 2007 ESBI contract and the other for a May 2008 ESAPI
contract. In both instances, the QAR replaced a single ballistic insert in the sample.
DCMA emphasized that the contractor did not identify any cracks on either of these two
ballistic inserts during the x-ray process. However, the cracked ballistic insert constitutes
a defective sample and would be considered to have failed physical inspection as well as
ballistic testing. DCMA's treatment of the cracked plate found on the x-ray was an
improper treatment of a sample item.

The Deputy Director, DCMA, stated that DCMA Phoenix contacted the customers and
apprised them of the two lots containing the replaced ballistic inserts. A U.S. Marine
Corps representative stated the inserts associated with the lot tested in October 2007 had
been removed from inventory. The Deputy Director, DCMA, also stated that DCMA will
work with BAE Systems and ArmorWorks to review their in-process statistical
management controls for lots presented for LAT. In addition, he stated DCMA Phoenix
would take corrective action concerning the statistical sampling requirements for the hard


                                             23 

armor contracts and provide training to quality assurance personnel on proper sampling
techniques. Further, he stated DCMA Phoenix would work with other DCMA IBA
contract management offices to address standardization of surveillance plans based on
customer requirements and recent agency policy changes. The Deputy Director also
indicated that the Technical Team Chief and Team Leader would increase random
surveillance of QAR LAT processes.

On April 21, 2010, the Deputy Director, DCMA, informed the DoD IG that DCMA had
taken action to mitigate the increased risk from the faulty LAT sample selection. On
June 22, 2010, the DCMA Deputy Director formally responded to a memorandum issued
by the audit team regarding the deficiency of the DCMA sampling process (see
Appendices C and D). The DCMA Deputy Director expanded on his previous comments
regarding the corrective actions taken on the ballistic insert sampling process. He stated
that the QARs will use a temporary solution to select random samples while DCMA
develops a more permanent random number generator. The Deputy Director also
provided additional details on the training and surveillance plans that will be provided to
the entire DCMA Quality Assurance workforce. Finally, DCMA is working to develop a
standard Body Armor Quality Assurance Letter of Instruction and a standard Government
Contract Quality Assurance surveillance plan for body armor procurements. As a result
of these corrective actions we did make a recommendation on the sampling process to
DCMA.

In April 2011, PM SEQ officials advised the audit team that contract M67854-06-D-3072
is a Marine Corps contract and that the Army did not purchase any ballistic inserts from
this contract. Consequently, we contacted U.S. Marine Corps Logistics Command
regarding M67854-06-D-3072 (lot MSP0258-AMTS1). The Team Leader, Armor and
Load Bearing Team, responded that based on our audit work, the team became aware of
the finding in April 2010 and took steps at that time to remove the affected Enhanced
Side-Small Arms Protective inserts from inventory. The team leader provided
documentation from U.S. Marine Corps Logistics Command indicating that 930 of 984,
or 95 percent, affected inserts had been recovered.

Recommendation, Management Comments, and Our
Response
Revised Recommendation
As a result of discussions with PM SEQ officials and the subsequent management comments, 

we revised draft Recommendation B to remove the risk assessment on the lot for 

contract M67854-06-D-3072.





                                            24 

B. We recommend that the Commanding General, Program Executive Office
Soldier, perform a risk assessment of the lot for contract W91CRB-09-D-0002 as a
result of Defense Management Contract Agency Phoenix’s improper treatment of a
sample item.


Management Comments
The Deputy Assistant Secretary of the Army for Acquisition and Systems Management
responded for the Commander, PEO Soldier. He agreed and stated that the Army will
perform a risk assessment of contract W91CRB-09-D-0002 (lot 1051) no later than
October 2011.

Our Response
Comments from the Deputy Assistant Secretary of the Army for Acquisition and Systems
Management are responsive, and the actions meet the intent of the recommendation.




                                        25 

Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through March 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit at the following DoD and contractor sites: Office of the Director,
Operational Test and Evaluation, Washington, D.C.; RDECOMAC, Aberdeen Proving
Ground, Maryland; Army PEO Soldier, Fort Belvoir and Haymarket, Virginia; DCMA
Phoenix, Arizona; ArmorWorks, Phoenix, Arizona; and BAE Systems, Phoenix, Arizona.

We interviewed contracting officials at RDECOMAC, program office personnel at PM
SEQ, QARs from DCMA Phoenix, and key personnel at BAE Systems and ArmorWorks.
We also interviewed a staff specialist from Live Fire Test and Evaluation, Office of the
Director, Operational Test and Evaluation. To eliminate duplicate efforts and obtain
additional evidence, we coordinated with personnel from GAO, Army Audit Agency,
Defense Criminal Investigative Services, DoD IG Joint and Southwest Asia Operations,
and Quantitative Methods and Analysis Directorate.

We collected and reviewed documents obtained for the seven contracts between the
contract award date of August 19, 2004, and June 30, 2008, from RDECOMAC,
PM SEQ, DCMA, BAE Systems, and ArmorWorks. We evaluated the quality assurance
process for ballistic inserts to determine whether it was adequate.

We obtained and reviewed the ballistic tests for 7 preliminary design models, 44 FATs,
and 1,222 LATs, which included 7,928 ballistic inserts. We also obtained an
understanding from PM SEQ of how its personnel evaluated the ballistic test results. We
analyzed the ballistic test results to determine whether preliminary design models, FATs,
and LATs met contract requirements. We also compared the test results with the
referenced COPDs.

We toured the BAE Systems and ArmorWorks manufacturing facilities for their
production of ballistic inserts and observed the responsibilities each DCMA Phoenix
QAR performed throughout the process. We reviewed the FAR, contract documents,
purchase descriptions, and DCMA surveillance plans and quality assurance procedures.

Observation of DCMA Sample Ballistic Insert Selection
DCMA Phoenix QARs were responsible for sampling ballistic inserts from contracts
W91CRB-06-D-0029, W91CRB-04-D-0040, and W91CRB-04-D-0042 for LATs. We
observed sampling for contracts W91CRB-09-D-0002 and M67854-06-D-3072, which
were not within the scope of the audit. RDECOMAC and Marine Corps Systems
Command awarded the contracts for production of ESAPIs, XSAPIs, and ESBIs.


                                           26 

Although the contracts were not within the scope of the audit, the sample selection
process was similar to the three contracts included in our review.

Use of Computer-Processed Data
We used computer-processed data to fulfill our objectives and perform this audit. We
relied on ballistic test data prepared by independent National Institute of Justice-certified
labs, which were obtained from PM SEQ officials, Government contractors, and DCMA
personnel. We were unable to assess the reliability of the computer-processed ballistic
test results. The test labs manually entered the test data into ballistic test result forms as
the test was conducted. All tests were performed prior to the initiation of this audit, thus
we were unable to observe the data capture process. As such, we were unable to measure
the potential for human error during the transfer of data. However, to support our audit
results, we pursued all material test data anomalies and concerns through discussions
with the appropriate officials from PM SEQ, the Office of the Director, Operational Test
and Evaluation, and the contractors. Those items we identified which could not be
adequately justified were deemed material and are discussed in this report. We also
observed the testing process at one of the National Institute of Justice-certified labs. We
determined that the information system controls were not significant to the audit
objectives and that it was not necessary to evaluate the effectiveness of information
system controls in order to obtain sufficient appropriate evidence.

Use of Technical Assistance
The Technical Director, DoD IG Quantitative Methods and Analysis Division, helped us
review the quality assurance process used for the IBA ballistic insert contracts. In
addition, he advised us on the validity of the DCMA sampling process used for the LATs
at BAE Systems and ArmorWorks.




                                             27 

Appendix B. Prior Coverage
This audit is the fourth in a series of reports in response to a request from
Congresswoman Slaughter and addresses the seven ballistic insert contracts. The first
report determined whether the Enhanced Small Arms Protective Inserts first article
testing criteria for Army contract W91CRB-04-D- 0040 was in accordance with the
contract. The second report focused on the contractors’ backgrounds and qualifications.
The third report focused on ballistic testing and quality surveillance for vest component
contracts.

During the last five years, the GAO, DoD IG, and the Army have issued 12 reports
related to IBA. Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-10-119, “Independent Expert Assessment of Army Body Armor
Test Results and Procedures Needed Before Fielding,” October 16, 2009

GAO Report No. GAO-07-662R, “Defense Logistics: Army and Marine Corps’s
Individual Body Armor System Issues,” April 26, 2007

GAO Report No. GAO-05-275, “Actions Needed to Improve the Availability of Critical
Items during Current and Future Operations,” April 8, 2005

DoD IG
DoD IG Report No. D-2011-30, “Ballistic Testing and Product Quality Surveillance for
the Interceptor Body Armor - Vest Components Need Improvement,” January 3, 2011

DoD IG Report No. D-2010-029, “DoD Contractor Qualifications and Selection Criteria
for Body Armor Contracts,” December 21, 2009

DoD IG Report No. D-2010-027, “Army’s Management of the Operations and Support
Phase of the Acquisition Process for Body Armor,” December 8, 2009

DoD IG Report No. D-2009-047, “DoD Testing Requirements for Body Armor,”
January 29, 2009

DoD IG Report No. D-2008-067, “DoD Procurement Policy for Body Armor,” March 31,
2008




                                            28 

Army Audit Agency
Army Audit Agency Report No. A-2011-0082-ALA, “Implementing Body Armor
Recommendations,” April 15, 2011

Army Audit Agency Report No. A-2011-0081-ALA, “Body Armor Requirements
Determination,” March 21, 2011

Army Audit Agency Report No. A-2009-0130-FFD, “Body Armor Requirements,”
June 8, 2009

Army Audit Agency Report No. A-2009-0086-ALA, “Body Armor Testing: Program
Executive Office, Soldier,” March 30, 2009




                                     29 

Appendix C. Request From 

Congresswoman Slaughter





                    30 

31 

Appendix D. Memorandum to DCMA
Regarding Body Armor Sampling




                  32 

33 

Appendix E. DCMA Response 





                   34 

35 

36 

37 

38 

Department of the Army Comments





                   39 

40 

                         Final Report
                         Reference




Click to add JPEG file

                         Revised 24-25




               41
